<html>
<title> - ANNUAL THREATS ASSESSMENT, PART I</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




      ANNUAL THREAT ASSESSMENT OF THE U.S. INTELLIGENCE COMMUNITY

=======================================================================

                                HEARING

                               before the

                       PERMANENT SELECT COMMITTEE
                            ON INTELLIGENCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, FEBRUARY 3, 2010




                  Printed for the use of the Committee



                  U.S. GOVERNMENT PRINTING OFFICE
55-551                    WASHINGTON : 2010 ----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001














               PERMANENT SELECT COMMITTEE ON INTELLIGENCE

                    SILVESTRE REYES, Texas, Chairman
ALCEE L. HASTINGS, Florida           PETER HOEKSTRA, Michigan
ANNA G. ESHOO, California            ELTON GALLEGLY, California
RUSH D. HOLT, New Jersey             MAC THORNBERRY, Texas
C.A. DUTCH RUPPERSBERGER, Maryland   MIKE ROGERS, Michigan
JOHN F. TIERNEY, Massachusetts       SUE WILKINS MYRICK, North Carolina
MIKE THOMPSON, California            ROY BLUNT, Missouri
JANICE D. SCHAKOWSKY, Illinois       JEFF MILLER, Florida
JAMES R. LANGEVIN, Rhode Island      K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      PETER T. KING, New York
ADAM B. SCHIFF, California
ADAM SMITH, Washington
DAN BOREN, Oklahoma

          Nancy Pelosi, California, Speaker, Ex Officio Member
       John A. Boehner, Ohio, Minority Leader, Ex Officio Member
                    Michael Delaney, Staff Director

 
                   ANNUAL THREATS ASSESSMENT, PART I

                              ----------                              


                      WEDNESDAY, FEBRUARY 3, 2010

                          House of Representatives,
                Permanent Select Committee on Intelligence,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in room 
HVC-210, Capitol Visitor Center, the Honorable Silvestre Reyes 
(chairman of the committee) presiding.
    Present: Representatives Reyes, Eshoo, Holt, Ruppersberger, 
Thompson, Schakowsky, Langevin, Schiff, Hoekstra, Gallegly, 
Thornberry, Rogers, Myrick, Blunt, Miller, Conaway, and King.
    The Chairman. Good morning. The committee will please come 
to order.
    And Director Blair, welcome again to our committee. As 
always, we are happy to have you here and glad that you were 
able to navigate through all the snow we got overnight, and I 
see that we have some members and hopefully other members will 
be able to come in. I don't know how many are affected by the 
weather today.
    Today marks the fourth annual threat assessment hearing 
that I have chaired. It is one of the rare opportunities for 
our committee to receive open and unclassified testimony on the 
threats the Intelligence Community is working to address 
throughout the world.
    Our purpose here today is to address the threats we will 
face in the future. It is not an effort to Monday-morning 
quarterback. What has happened in the last year obviously is 
not irrelevant. The challenges we have faced are in some ways 
indications of what we will face in the near future.
    We have seen in recent months the tragedy of self-
radicalization and home-grown threats, both in the attacks on 
the soldiers and civilians at Fort Hood and the incident on 
Christmas Day. We have seen, of course, the continued efforts 
of al Qaeda to strike us. That was evident in the attempted 
bombing on Christmas Day and in the conspiracy of Najibullah 
Zazi in New York.
    In the Christmas Day attempt, we saw that we still have a 
ways to go to improve our defenses against terrorism. In the 
Zazi case, frankly, we saw that, I believe, sometimes we get 
this right. And, really, the times that we have gotten things 
right and have not publicized it, are, for national security 
reasons, are important to note today as well.
    Finally, on December 30th, in Khost, Afghanistan, we saw 
the grave risk faced by the men and women of the Intelligence 
Community. They paid the ultimate price and made a sacrifice 
that we as Americans must never forget.
    The central lesson of all these things is clear. Today, 
more than 8 years after September 11th, our principal challenge 
is the same: Identify terrorist plots and stop them before they 
harm American citizens and American interests.
    Al Qaeda and its affiliates are as determined today as ever 
to harm the United States. Addressing that threat, I think, 
involves attacking the problem on three fronts: at home; in the 
border regions of Afghanistan and Pakistan; and, finally, in 
emerging terrorist safe havens around the world.
    On the home front, we have to address the threat of 
terrorism within the United States and the problem of self-
radicalization. The shootings at Fort Hood were a devastating 
reminder of the threat posed by self-radicalized extremists 
that are inside the United States.
    So this morning, Director Blair, one, among some of the 
questions that I would like to have you address are, what steps 
will you take to identify and address terrorist threats within 
the United States? How will we strike the proper balance 
between law enforcement and intelligence? I fully understand 
and know that this issue has been hotly debated lately, but I 
want to know what your plan is and what you will do going 
forward.
    In the border regions of Afghanistan and Pakistan, our 
efforts to fight extremists are greatly dependent on 
cooperation from both governments. Those governments struggle 
with the challenges of both internal threats and corruption. 
Despite the best intentions of our allies, the Afghan Taliban 
is gaining strength. This presents one of our biggest 
challenges to date, fighting extremism in the nation that 
continues to struggle to provide basic services to its own 
citizens. Again, what are our plans for turning back the 
Taliban and building stability in Afghanistan?
    Over the past 7 years, the war in Iraq placed a huge burden 
on the Intelligence Community's resources. While the IC 
continues to support our warfighting operations in Iraq, today 
I am particularly interested to hear how you are supporting the 
President's strategy of increased operations in Afghanistan as 
the United States continues to draw down its troops in Iraq.
    In Pakistan, the government recently claimed that, due to a 
strain on its military, Pakistan could not launch any new 
offensives against extremists in North Waziristan for at least 
6 months. What effects do Pakistan's limitations have on the 
Intelligence Community's ability to counter extremism in that 
volatile region?
    A comprehensive approach to terrorism has to deal with 
emerging terrorist safe havens. We only have to remember the 
bombing of the USS Cole in October of 2000 to remind us that 
the threat from terrorist activities in Yemen is not a new 
threat. However, Yemen is not the only area of the world that 
affords terrorists relative safety to plan, to train and to 
launch potential attacks against the United States and our 
allies.
    In past years, this committee has taken particular interest 
in Somalia and areas of North Africa. The Horn of Africa has 
been a particular concern for many years because they have weak 
central governments or experienced great instability that might 
allow the creation of safe havens to develop. Our primary 
concern in raising this issue is one of sufficient resources. 
So the questions are, does the Intelligence Community have 
sufficient collection and analytical resources directed at 
understanding the political, the economic, the military and the 
leadership dynamics of these nations in this conflictive part 
of our word.
    Terrorism, sadly, is not the only threat that we face. Iran 
and North Korea still pose significant threats to U.S. 
interests and to international security. I remain extremely 
concerned about Iran's nuclear weapons program, especially in 
light of the revelation of a second nuclear enrichment 
facility, near Qom. It seems that the prospects for diplomatic 
dialogue are diminishing as the Iranian government's crackdown 
on its people becomes more violent.
    Just overnight, the Iranians claim to have the ability to 
launch satellites into space. Those are all daunting challenges 
on many different fronts but certainly affect our ability to 
have a clear understanding of the intelligence challenge that 
it is to us.
    I am also quite concerned about North Korea's nuclear and 
missile program. In January, North Korea issued two statements 
posing peace treaty talks and sanctions removal before it 
returns to nuclear talks. However, just last week, North Korea 
exchanged fire with South Korea, raising tensions on a regional 
basis. What is the Intelligence Community's current assessment 
of this program and this region, and have we seen any 
willingness from North Korea to dismantle the program as a 
precondition to negotiations?
    China, a U.S. ally, still clearly poses a threat to our 
national interest. Although the President has promised a more 
conciliatory era in U.S.-China relations, we cannot ignore the 
Chinese-oriented cyber attacks and the continued and 
significant buildup of the Chinese navy. Despite reports to the 
contrary, I hope that China remains a top priority for our 
Intelligence Community.
    The United States continues to be a victim of a disturbing 
increase in the scope, virulence and potency of cyber attacks. 
Whether the perpetrator is a terrorist organization or a state 
actor, the threat to our energy, financial, communications and 
security infrastructure remains the same. The Intelligence 
Community has a critical role to play in understanding the 
threat, securing our classified information technology systems 
and working with the business community to secure our critical 
infrastructures.
    In the last year, we have stepped back from the brink of 
financial ruin and even of a potential global financial 
depression. While times are still hard and the greatest threat 
has passed, we still have many challenges on those fronts. I 
fear that one cyber attack could put us right back where we 
were a year ago on the brink of potential economic disaster.
    Finally, I am interested to hear your assessment of a 
situation that I continue to monitor closely, and that is the 
rampant violence in Mexico related to drug-trafficking 
organizations and criminal gangs and the Calderon 
administration's willingness to take those organizations on.
    While Mexico has seen a number of encouraging successes 
this year, including the arrests of Teodoro Eduardo Garcia 
Simental and Carlos Beltran Leyva, and of course the death of 
Arturo Beltran Leyva, a number of us still remain very 
concerned about that situation.
    As you know, Director Blair, right across the border from 
my district is Ciudad Juarez, a city that has seen a staggering 
number of murders, kidnappings and other violent crimes. Just 
last Saturday, several gunmen brazenly murdered 16 people, most 
of them below the age of 20. The brutality of this attack was 
shocking even to the people of Juarez, who over the course of 
the last 2 years have witnessed a tremendous amount of violence 
and mass shootings, and that raises the level of concern to our 
national security.
    This is not just a matter of Mexico's national security. 
Those of us who live on the border know that our futures are 
linked and that narco-related criminal activity is just as much 
our problem as it is Mexico's. To that end, I am interested to 
hear how the Intelligence Community is coordinating with the 
Government of Mexico in the continued fight against narco 
traffickers and criminal gangs.
    Again, Director Blair, I thank you for being here this 
morning. I know I have given you a lot to respond to. But, as 
you know, we have many challenges coming at us from varied and 
different areas globally, and so we appreciate your willingness 
to come here and share your thoughts with the committee.
    So I will close by noting that I have great respect for the 
men and women of the Intelligence Community who are working 
under your guidance throughout the world. I take great pride in 
working on their behalf in Congress, and I am committed to 
making sure that they have the resources that they need to 
protect our Nation from the many threats that face us all 
collectively.
    With that, let me now recognize the ranking member for any 
comments that he may wish to make in his opening statement.
    [The statement of the Chairman follows:]
    

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Hoekstra. Thank you, Mr. Chairman.
    Director Blair, it is good to have you here today.
    Mr. Chairman, I have a written statement that I would like 
to submit for the record.
    The Chairman. Without objection.
    Mr. Hoekstra. Then I will just kind of speak for a couple 
of minutes.
    I want to kind of change the tone a little bit, and I want 
to talk about accountability. I want to talk about inability of 
the community to hold itself accountable for its performance 
and what I see as an increasing, from my perspective, an 
increasing demonstration that this community is unwilling to be 
held accountable by Congress and this committee.
    How do I come to this conclusion? You know, we are coming 
to a close on a very painful chapter in the Intel Community. 
The shoot down of Americans, the death of a mother and a 
daughter in Peru almost 9 years ago. The accountability board 
has recently finished its work. But if there is ever an example 
of justice delayed, justice denied, this is it.
    The justice or the accountability board was empaneled too 
investigate the wrongful deaths of these two Americans, 
misleading, and some might say lying, to Congress by the Intel 
Community. And the result of this is, after 8 years, there has 
been minimal accountability. I think the only reason that there 
has been any accountability is because of the work of people on 
this committee. Myself, Ms. Schakowsky, who has been a stalwart 
in working with me, and Mr. Miller, in continuing to press the 
issue forward.
    You know, you go through this whole process, and then you 
add what I consider insult to injury. You know, I have asked 
the community, what information can be shared with the 
surviving family members? And, again, Ms. Schakowsky is working 
with us to get them a full accounting of exactly what happened 
on that fateful day of 2001.
    But the information that I have been told that I could 
share with the family was, mistakes were made; people were held 
accountable; and it won't happen again.
    That is totally unacceptable, and I hope that, under your 
leadership, the leadership of Director Panetta, this family 
will get a much more complete accounting of what happened to 
their wife, their daughter, and their grandchild on that day.
    The community's performance in terms of accountability has 
been unacceptable. From my perspective, you could almost say 
that the bureaucracy won.
    These were Americans that were killed with the help of 
their government. The community covered it up. They delayed 
investigating. It took 3 years--3 years--for the IG to complete 
its report, so the accountability board really wasn't empaneled 
until 7 years after the incident, and it took more than 8 years 
before any sanctions were ever proposed and implemented.
    From my perspective, it is a failure of all levels of 
leadership within the community to hold itself accountable in 
perhaps the most tragic of circumstances where people and 
family members were killed by their own government or with the 
help of their own government. Maybe you can explain today why 
it took 8 years, more than 8 years, for there to be any type of 
accountability.
    My second point is, this committee can't do its job if you 
don't share information with us. It was last week that we began 
a hearing by holding up the Washington Post, because the 
Washington Post had more information than this committee had 
about what the Intel Community might be doing in regards to 
targeting Americans.
    Today, we get a story from the New York Times. The White 
House hastily called a briefing on Tuesday evening to discuss 
the new details of this case. I wish you would hastily call a 
meeting or a conference call with this committee to share 
information on terrorist cases. That might help, but it is 
interesting that, you know, to get your best information on 
what is going on in the Intel Community today, it appears you 
go to the newspapers.
    And these are not the only two instances. It also concerns 
Fort Hood. It took us weeks to get information on Fort Hood. It 
took us weeks to get information on the Christmas Day bomber.
    Even you, yourself, admitted or said a couple of weeks ago 
that, Congressman, that they played games with you when they 
went to Yemen, when they wouldn't share information with you on 
the specific instructions from people from the Intel Community 
and the administration saying, you know, when Congressman 
Hoekstra is in Yemen, and he asks questions about these areas 
where he has oversight, tell him that you can't answer those 
questions, and that information will be forthcoming when he 
comes back to Michigan--or, excuse me, when he comes back to 
Washington D.C.
    What is the community unwilling to share with this 
committee? What policies can't pass public scrutiny or pass the 
scrutiny of this committee?
    Finally, I do want to get back to the story, excuse me, I 
want to get back to the story that was in the Washington Post 
last week, targeting of Americans. It is a very sensitive 
issue, but, again, there has been more information in the 
public domain than what has been shared with this committee.
    We know the spokesman for bin Laden, Godahn. He has been 
the spokesperson for bin Laden for years. He is an American. He 
has been charged with treason.
    We know of, more recently, the Northern Virginia Five, the 
people who are now under arrest in Pakistan for, again, 
supposed terrorist connections.
    We all know about Awlaki, the American-born radical cleric 
who is connected in certain ways with Fort Hood and is 
connected to the Christmas Day bomber in Detroit.
    What is our policy towards them? They are terrorists. They 
are traitors. You know, when we dealt with these kinds of 
issues previously about how we deal with Americans, we went 
through a painstaking process to develop that policy and 
hopefully get by and by the administration and Congress.
    You know, probably the best example of that is the 
Terrorist Surveillance Program, about how tools could be used 
against various targets, including Americans. But we went 
through a very painstaking process, so that we all on this 
committee kind of understood the rules and the Intel Community 
understood what those rules were going to be and the box that 
they had to operate within.
    In other cases, we had congressional Gang of Eight 
briefings on some of the most sensitive issues, but it was an 
attempted partnership between the administration and this 
committee or representatives of this committee on the most 
sensitive of U.S. policies. I can't think of anything that is 
more sensitive in this threat that we face today of this 
emerging trend of them targeting Americans for recruitment and 
sometimes being successful and how we will respond to those 
Americans who are successfully recruited and have decided that 
they are now part of a radical jihadist movement targeting 
their fellow citizens.
    We need to understand and develop that policy. We need to 
understand it, because we need to do the oversight. We need to 
know and understand and help shape the box that the Intel 
Community and the U.S. Government has when it is dealing with 
Americans.
    It is obvious in the case, you know, in 2001, that the 
rules may have been clear, but the policy was not implemented 
very well when we shot down that plane in Peru. The concern 
that I have today is that I am not sure that the box is very 
clear or very well understood as to what you and the people in 
your organizations can do when it comes to Americans who have 
joined the enemy.
    We have asked the questions. The chairman has indicated he 
has a genuine interest in getting to the answers and 
understanding this.
    The question that I have, when will the answers be 
forthcoming? When will the administration submit itself to 
having that dialogue with this committee so that we can 
understand and help shape that box, and then we will be in a 
position to do the oversight that needs to be done?
    I can't think of anything that is more important for this 
committee to do at this point in time than to answer those 
questions, because there is nothing more dangerous to this 
country than Americans who have joined the enemy and have as 
their goal to attack us, and we need to understand and 
implement that policy.
    Mr. Chairman, thank you very much.
    [The statement of Mr. Hoekstra follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, Mr. Hoekstra.
    And I just want to remind our members and witnesses that we 
are in open session this morning.
    Clearly, some of the questions that Mr. Hoekstra asked, you 
can't respond to in open session.
    I, too, if you have a magic formula on how to stop leaks to 
the press, I am interested in hearing what you propose to do. 
But, frankly, it has been something that we have wrestled with 
for the last two administrations, the amount of information 
that gets leaked.
    And then I would remind all of us that, although 
sensational, some of that information that gets reported in the 
media, we have known and have heard from our experts in closed 
session that a lot of that information is wrong; a lot of that 
information is embellished; a lot of that information is 
untrue. So while it is aggravating and irritating, let's make 
sure we keep that in perspective.
    The other thing I want to mention before I recognize 
Director Blair is that when Mr. Hoekstra talks about lack of 
information, I have, and I believe he has, been contacted by 
members of the administration. I know on Christmas Day, when 
that incident occurred, I got an extensive briefing from Mr. 
Brennan on that night.
    Then subsequent to that, we have had information. But I 
also know, I guess it is based upon my law enforcement 
experience, that we need to give our professionals that you 
work with, Mr. Director, the time to fully investigate, to find 
out what all the circumstances are, and then bring people in 
and get the correct information rather than information that is 
misreported and misconstrued and misused in some cases.
    So, with that, I just want us to keep things in 
perspective. We do have serious challenges that we have to 
face. I think it is a legitimate issue, and I am awaiting the 
subcommittee's report on the issue that Mr. Hoekstra brought up 
about the shooting in Peru. I know that Director Panetta is 
taking that issue very seriously.
    I can remember back to the initial hearing that we held 
where I raised some issues that, the circumstances of that 
shooting really didn't make sense to me because you had a 
dynamic in there where people were having to translate several 
times before the action was taken.
    So those are all things that we hope will come out in this 
subcommittee investigation, and I look forward to those results 
and then moving forward with, how do we make sure that that 
never happens again?
    With that, Director Blair, your written testimony will be 
made part of the official record of this hearing, and now you 
are recognized for any opening statement that you may wish to 
make.

STATEMENT OF DENNIS C. BLAIR, DIRECTOR OF NATIONAL INTELLIGENCE

    Admiral Blair. Well, thank you very much, Chairman Reyes, 
Ranking Member Hoekstra.
    There are two different sets of questions and issues that 
have been raised in your opening statements, one having to do 
with the overall threat assessment to the United States going 
into the future; the second, these questions of accountability 
and procedures, especially those involving the way the 
Intelligence Community treats Americans.
    I will be glad to go in more detail in questions and 
especially in more detail in the closed session, and some of 
the matters I think are best discussed there.
    But before talking about the overall threat, let me just 
say, Congressman Hoekstra, that in both the collecting of 
intelligence and certainly in the use of force in direct action 
by the Intelligence Community and in the support that we give 
to the Department of Defense, which is the other branch of 
government which blows stuff up and kills people, we follow a 
set of defined policy and legal procedures that are very 
carefully, carefully observed.
    And when there are questions, they are raised, and we give 
guidance down to the field so that we know that they are acting 
towards Americans. That has been the experience in the year 
that I have been director. Director Panetta and I have had 
direct conversations about things going on now.
    As far as the issues that you raise of the past, the Peru 
shoot down, the grinding on of that process, I agree with you; 
that is an awfully long time to do that, and I will take 
another look at it.
    I know Director Panetta has. I will look over his shoulder 
and make sure that we are doing the right thing. But I just 
want to share with everybody in open session that we take 
American citizens' status and rights as Americans seriously. We 
spend a lot of time making sure we are doing the right thing, 
whether it is in collection or in direct action, and we can 
discuss some details subsequently.
    But let me turn to the overall threat assessment. You have 
seen my extensive written report on it, but let me just 
summarize some of the highlights and, first, by emphasizing 
that it is the product of the work of the thousands of 
patriotic, skilled brave professionals that I have the honor of 
leading as the world's finest intelligence team. And the work 
that they do, as I think particularly brought into relief by 
the seven deaths that we have had recently of officers and the 
dozen more who have been wounded in recent weeks who we are 
caring for, it is a serious business that we are in.
    All of these Intelligence Agencies, the 16 in the 
Intelligence Community, participated in the statement that I 
submitted for the record and in the remarks that we will make.
    Let me start with the subject of information technology, 
since we all know, on a personal and on a business basis, every 
day there are new gadgets, there are new services, which make 
our lives faster and more efficient. But I think what we don't 
quite understand as seriously as we should is the extent of 
malicious cyber activity that is growing now at unprecedented 
rates, extraordinary sophistication.
    The dynamic of cyberspace, when you look at the 
technological balance, right now it favors those who want to 
use the Internet for malicious purposes over those who want to 
use it for legal and lawful purposes, and we have to deal with 
that reality.
    An additional important factor is the growth of 
international companies in supplying both software and 
hardware, not only to private companies in this country but 
also for our sensitive U.S. Government networks. This increases 
the potential for a subversion of the information in those 
systems.
    The recent intrusion of Google is yet another wake-up call 
about just how seriously we have to take this program.
    Cybercrime is on the rise. Global cyber bank and credit 
card fraud has serious implications for economic and for 
financial systems worldwide. Attacks against networks that 
control the critical infrastructure in this country and in 
others, energy, transportation, attacks on those 
infrastructures could wreak havoc.
    Cyber defenders, right now, it is simply the facts of the 
matter, have to spend more and work harder than the attackers 
do. And our efforts, frankly, are not strong enough to 
recognize, deal with that reality. The United States Government 
and the private sector--and we are deeply intertwined in this 
matter--have to do more to ensure that adequate cyber defenses 
are in place.
    Let me turn to the global economy, where the trends are 
more positive. A year ago, I was here warning about the dangers 
of a global depression. But in that year, an unprecedented 
policy response by both governments around the world and by 
central banks has laid the foundation for a global recovery 
that most forecasters expect will continue through this year, 
although unemployment will persist.
    Not all countries, however, have emerged from the slump, 
and several of them are important to the United States. 
Pakistan and the Ukraine are still struggling to put their 
economic houses in order. Our allies, who have forces with us 
in Afghanistan and elsewhere, are dealing with budget cuts, 
which affect their ability to participate.
    China is emerging from the events of the past year with 
enhanced clout. Its economy will grow from being approximately 
a third of America's to about half by 2015, faster than we had 
previously forecast, if current trends continue. Last year, 
Beijing contributed to the G-20's pledge to increase 
International Monetary Fund resources. It deployed naval forces 
to the international anti-piracy patrols in the Gulf of Aden, 
and it supported new U.N. Security Council sanctions against 
North Korea. That is all very positive.
    Nonetheless, Beijing still believes that the United States 
seeks to contain it, to transform its society, and that 
reinforces their concerns about internal stability about 
perceived challenges to their sovereignty claims. China 
continues to increase its defense spending. Preparations for a 
Taiwan conflict involving a U.S. intervention continues to 
dominate their modernization and their contingency plans, and 
they are also increasingly concerned about how to protect their 
global interests.
    Turning to violent extremism, we have been warning in the 
past several years that al Qaeda itself--its affiliates and al 
Qaeda-inspired terrorists remain committed to striking the 
United States. And in the past year, we have some names that go 
behind these warnings.
    As the chairman mentioned, Najibullah Zazi, two 
coconspirators were allegedly trained by al Qaeda in 
Afghanistan. Umar Faouk Abdulmutallab, the Nigerian who 
allegedly attempted to down a U.S. airliner on Christmas Day, 
represents an al Qaeda-affiliated group. And Major Nidal Hasan 
at Fort Hood, a homegrown, self-radicalized extremist.
    The violent extremist threat is evolving. We have made 
complex multi-team attacks very difficult for al Qaeda to pull 
off. But as we saw with the recent rash of attacks last year, 
both successful and unsuccessful, identifying individual 
terrorists, small groups with short histories, using simple 
attack methods is a much more difficult task.
    We in the Intelligence Community did not identify Mr. 
Abdulmutallab before he boarded Northwest Flight 253 on 
Christmas Day for Detroit. We should have. And as we have 
discussed with this committee, we are working hard to improve 
so that we can.
    On a more positive note, only a decreasing and ever smaller 
minority of Muslims support violent extremism, and that is 
according to a number of polls taken in many Muslim countries. 
But still, al Qaeda's radical ideology seems to appeal strongly 
to a disaffected group of young Muslims, and this is a pool of 
potential suicide bombers, and this pool unfortunately includes 
Americans.
    Although we don't have the high-level home-grown threat 
facing Europeans, we have to worry about the appeal that 
figures like Anwar al-Awlaki exert on young American Muslims.
    However much we improve, we cannot count on intelligence to 
catch and identify every threat. Intensified counterterrorism 
efforts in the Pakistan theatre, as well as around the world, 
Yemen, Somalia, elsewhere are crucial to diminishing this 
threat. So, too, is working with allies and partners, enhanced 
law enforcement and other security measures, including 
immigration and visa controls, aviation and border security. 
All of these can disrupt terrorist plans. We need a 
multilayered dynamic defense supported by good intelligence.
    Let me then turn to the outlook in Afghanistan and 
Pakistan, where the Intelligence Community is putting 
extraordinary efforts forth in combination with both Department 
of Defense deployments and with civil teams.
    Since January 2007, that is 3 years ago, the Taliban has 
increased its influence and expanded its insurgency while 
holding on to its strongholds in the Pashtun belt in 
Afghanistan.
    So the challenge is clear:
    First, reversing this Taliban momentum while holding onto 
security gains elsewhere.
    Second, improving Afghan security forces, governance, 
economic capability, so that as security gains are made, they 
can endure, and responsibilities can be turned over to the 
Afghans themselves.
    Now, early successes in places like Helmand, where the 
Marine units have been deployed for several months, where there 
is an aggressive counter-drug program, economic programs in 
place, where local governance is competent; these show us that 
we can make valid progress, we can make solid progress. Even 
where the threat is great.
    The safe haven that the Afghan insurgents have in Pakistan 
is the group's most important outside support. And disrupting 
that safe haven won't be sufficient by itself to defeat the 
insurgency in Afghanistan. But disrupting that presence in 
Pakistan is necessary. It is a necessary condition for making 
overall progress in Afghanistan.
    The increase in terrorist attacks against their country has 
made the Pakistani public more concerned about the threat from 
Islamic extremists, including al Qaeda. Pakistanis continue to 
support the use of military force against insurgents in their 
country, and Islamabad has demonstrated determination and 
persistence in combatting the militants that it perceives are 
dangerous to its interests. But it has also continued to 
provide some support to other Pakistani groups that operate in 
Afghanistan.
    Looking to the future, U.S. and coalition successes against 
the insurgency in Afghanistan could provide new long-term 
incentives for Pakistan to take steps against Afghan-focused 
militants. Increased Pakistani cooperation is more likely if 
Pakistan is persuaded that the United States is committed to 
stabilizing Afghanistan and is capable to doing so.
    Let me finally turn to Iran, where the available 
intelligence indicates that Tehran is keeping open the option 
to develop nuclear weapons. This is being done in part by 
developing various nuclear capabilities that bring it closer to 
the ability to produce weapons.
    One of the key capabilities Iran continues to develop is 
its uranium enrichment program. Published information from the 
International Atomic Energy Agency, the IAEA, indicates that 
Iran has significantly expanded the number of centrifuges in 
its facility at Natanz. It also has had problems operating 
these centrifuges, which has constrained the production of low-
enriched uranium.
    The United States and other countries announced last 
September that Iran for years had been building in secret a 
second enrichment facility near the City of Qom. We assess that 
Iran has the scientific, the technical, the industrial capacity 
to produce enough highly enriched uranium for a weapon in the 
next few years and eventually to produce a nuclear weapon. The 
central issue is a political decision by Iran to do so.
    Meanwhile, Iran continues to improve its ballistic missile 
force. The chairman mentioned another step it took recently, 
and this enhances its power projection, provides Tehran the 
means for delivering a possible nuclear payload.
    We do not know if Iran will eventually decide to build 
nuclear weapons. We continue to judge that it takes a cost-
benefit approach to making decisions on nuclear weapons, and we 
judge that this offers the international community 
opportunities to influence Tehran's decision making.
    Meanwhile, apart from these nuclear decisions, which are a 
great concern to us, the Iran regime has found itself in a 
weaker internal political situation following last June's 
disputed presidential election and the ensuing crackdown on 
protesters. Reacting to the stronger-than-expected opposition 
in the regime's narrowing base of support, Supreme Leader 
Khamenei, President Ahmadinejad and their hard line allies 
appear determined to retain the upper hand by force.
    They are moving around in a more authoritarian direction to 
consolidate their power. However, they have not been successful 
so far in suppressing the opposition.
    Mr. Chairman, this is the top layer of threats. There are 
other areas which you mentioned in your statement that continue 
to demand our continued attention and focus including continued 
security in Iraq, the Korean Peninsula, weapons of mass 
destruction proliferation, and challenges right here in the 
Western Hemisphere, as you have mentioned, working with Mexico 
against the drug cartels and also other developments in Latin 
America.
    I am also prepared to discuss important transnational 
issues like global health. Indeed, the very complexity and 
number of these issues, the large number of actors, both 
countries, nonstate actors, increasingly constitutes one of our 
biggest challenges, as they all mix together in forming the 
international environment in which the United States operates. 
But I am very encouraged by what I have seen in the past year 
on the job about how the Intelligence Community is organizing 
both to collect intelligence and then to analyze this 
complexity.
    The 100,000 military and civilian intelligence 
professionals I have the honor to lead work hard on these 
problems. They produce good results, and I believe they are 
providing a tremendous contribution to the security of the 
country.
    Thank you, Mr. Chairman, I would be happy to answer 
questions.
    [The statement of Admiral Blair follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, Mr. Blair.
    Just for the record, we have a hard stop for the director 
at 1 o'clock. So we are going to--I would ask all members to 
look at the clock in front of your station. When the amber 
light comes on, know that you have got a minute to wrap up, so 
please. In order for us to get every member the opportunity to 
ask questions, everybody has got to respect that 5-minute 
limit.
    Director Blair, well, first of all, do you wish to comment 
on the issue of leaks? I mean, do we have any plan to be able 
to identify those that are leaking information to the media? Is 
there anything that can be done to debunk the erroneous 
information that inadvertently gets reported in those stories?
    Admiral Blair. Mr. Chairman, we have talked about this 
before. Starting last year, we have undertaken a new set of 
initiatives to try to clamp down on it within the Intelligence 
Community. This involves putting more emphasis on 
administrative measures within the Intelligence Community than 
in turning over a crimes report to the Department of Justice. 
So far, the crimes report method has resulted in delayed 
justice, if it has achieved justice at all, and the track 
record is very, very disappointing in terms of actual 
convictions.
    So, we are emphasizing administrative measures which we can 
take within each agency to investigate quickly, to check the 
various ways we have of keeping track with what our people are 
doing and to investigate administratively very, very quickly.
    There are, we have seen some early results in the 
Intelligence Community. There are several cases which I think 
we can--which we can take care of pretty quickly, and I think 
the example of being able to identify someone and take 
appropriate action have a very salutary effect on others who 
think they are smarter than the people who lead these agencies 
and think that they want to pass them to the press.
    As far as the Washington sport of using leaks for policy 
posturing, I am less sanguine, frankly. My primary concern is 
sources and methods and making sure that we don't leak things 
that take us hundreds of millions of dollars to compensate for 
since our adversaries then quickly change their ways of 
operating.
    The Chairman. In your statement, your written statement, 
you make an observation that radicalization of groups and 
individuals in the United States has done more to spread 
jihadist ideology and to generate support for violent causes 
overseas than it has produced terrorists targeting the 
homeland.
    However, given the incident of Fort Hood, as I see it, the 
threat from home-grown terrorists, if anything, has increased, 
the potential has increased, one of the big reasons being the 
Internet and the availability of information that can lead to 
radicalization, individual radicalization.
    So I have a couple of questions. One is, what is the 
community doing to better understand that threat of 
radicalization? And, second, why does the Intelligence 
Community think that radicalization has done more for efforts 
overseas than for plots attacking the homeland, as you observed 
in your statement?
    Admiral Blair. Yes, sir, Mr. Chairman, this use of the 
Internet is, it is growing quickly, as you state. The use of 
the Internet for foreign-based organizations trying to organize 
attacks, give instructions, arrange logistics, arrange 
financing, that, heretofore, has been the most dangerous use of 
the Internet.
    The home-grown radicalization of people in the United 
States reading these Web sites, then corresponding with the 
spokesmen of the organizations overseas, as happened with Major 
Hasan, and so it is a relatively--as a significant force, is 
relatively new. We might, as you suspect, be shooting behind 
the rabbit here, and it is moving faster than we thought, and 
we are spending a lot of additional effort on that now to try 
to understand it. There are some technical things which are 
making it more difficult with the use of social networking, as 
opposed to simply looking at a Web site and responding by e-
mail.
    So I think you are pointing at a threat which may be 
increasing, we are taking it more and more seriously, and this 
is something that is potentially very dangerous to us for all 
of the reasons of the rights that American citizens have.
    The Chairman. I know that the military is taking these 
kinds of internal threats very seriously. Is there a strategy 
between perhaps DOD and the Intelligence Community to address 
these kinds of issues?
    Admiral Blair. Yes, sir. Within the Intelligence Community, 
we have taken measures so that intelligence information that is 
gathered lawfully on Americans that indicates that a member of 
the Department of Defense or someone who also works for other 
national security agencies will be--that information will be 
forwarded to the investigative branch of that service, whether 
it be in DOD or elsewhere, so that it can be put together with 
information within that agency, and we can bring together the 
agency information plus intelligence information to identify 
threats.
    The investigation by Admiral Clark and Secretary West had 
some internal DOD recommendations for our part. We are going to 
make sure that we don't set a high threshold on sharing of that 
information so that we can catch these people.
    The Chairman. Finally, what is the status of the HIG, the 
High Value Interrogation Group, and the policy? Where are we in 
implementing that group for interrogation purposes? Also, is 
the FBI also part of that group?
    Admiral Blair. Certainly, Mr. Chairman. Last week, the 
charter for the High Value Interrogation Group was signed. It 
sets out the procedures. The FBI has the lead for it. There are 
deputy directors; one from CIA, and one from the Department of 
Defense.
    The principles of it are to bring together the best 
interrogators with the best intelligence backup professionals 
to interrogate important detainees. We haven't completed all of 
the training and the setup, but even as we do, we have sent 
teams to, actually, to interview some high-value detainees who 
exist now. And we are using those principles in all 
interrogations, including that of Mr. Abdulmutallab, although 
the formal HIG is not being used in his case.
    So I am encouraged now by the speed with which that is 
coming online, and I think it represents the best practice that 
we want to achieve.
    And I should mention, the other part of the HIG's charter, 
right now it operates under Army Field Manual, both guidance 
and restrictions, but we have given it the responsibility of 
doing a scientific research to determine if there are better 
ways to get information from people that are consistent with 
our values. So it has a research budget. It is going to do 
scientific research on that long-neglected area.
    The Chairman. And who will take the lead in training the 
interrogators?
    Admiral Blair. The head of the HIG, who is an FBI official, 
will have the responsibility for certification. Those of us who 
oversee it will have to make sure that we approve of the 
procedures that he sets up.
    The Chairman. So the FBI has the lead on training?
    Admiral Blair. The FBI has the lead on training, but it 
will be using best practices from DOD interrogators as well as 
from the FBI.
    The Chairman. Thank you.
    Mr. Hoekstra.
    Mr. Hoekstra. Just answer a couple of questions following 
up on that. Has that FBI person been appointed who is heading 
it up?
    Admiral Blair. Yes, sir, he has been; Andrew McCabe his 
name is.
    Mr. Hoekstra. And the procedures have been approved and 
outlined? There was some confusion, I think, a couple of weeks 
ago as to whether the HIG actually existed or not with the 
Detroit case. I think some people said, and I think it might 
have been you that said the HIG should have been used with 
Farouk, and others said it is not up and running yet. And 
listening to you answer, I am not sure if we captured someone 
else today, whether you could call the HIG and somebody would 
be there in a few hours. Is that the case?
    Admiral Blair. Yes, sir. You now can. You couldn't have 
done back in late December. It was forming, but not formed. It 
has formed now.
    Mr. Hoekstra. All right. Thank you.
    I appreciate the discussion on the leaks. I think it is 
kind of interesting. You know, the briefing last night was not 
a leak, all right? I mean, this was an administration, you 
know, it was at the White House, speaking to reporters at the 
White House on the condition of anonymity, and the White House 
hastily called a briefing on Tuesday night to talk about what 
was going on with the Christmas Day bomber.
    I do find it an interesting strategy that we hastily call a 
briefing to let America and our friends and our enemies in the 
Middle East know that he is now singing like a canary. Someone 
will someday have to explain that to me from an intelligence 
standpoint, why we would communicate that. And if we believe it 
is so important to communicate that, I am assuming we invited 
Al Jazeera to be there last night to get that information out 
there quickly.
    Also, the Washington Post, you know, sources, senior 
administration officials, these are not low-level people that 
are necessarily sensationalizing those types of things.
    I want to go back to the issue of targeting Americans. You 
said, hey, there is a--your comments were along the lines of, 
we have a framework, and we have a legal framework that we 
follow. I can tell you that when we have asked people from the 
Intel Community about these types of questions and types of 
issues, the one thing that is consistent, there is no clarity 
as to how they operate, what their box is that they operate 
within, or they have a great inability to articulate that with 
any type of clarity. If it is there, it may be there, but they 
are not able to communicate it with any clarity.
    And so what clarity can you add in terms of, you know, 
exactly what is the legal framework? What are the laws that 
govern this?
    Admiral Blair. We take direct action against terrorists in 
the Intelligence Community. If that direct action--we think 
that direct action will involve killing an American, we get 
specific permission to do that.
    Mr. Hoekstra. And what goes into factoring that decision, 
the parameters?
    Admiral Blair. Primarily it has to do with the ones that 
you outlined in your statement, whether that American is 
involved in a group that is trying to attack us, whether that 
American is a threat to other Americans. Those are the factors 
involved.
    Mr. Hoekstra. So there is a framework and a policy for a, 
hypothetically, a radical-born cleric who is living outside of 
the United States; there is a clear path as to when this person 
may be engaging in free speech overseas and when he may have 
moved into recruitment or when he may have moved into actual 
coordinating and carrying out or coordinating attacks against 
the United States?
    There is a relative clear path as to where that person 
hypothetically will have crossed the line and then will be 
targeted?
    Admiral Blair. I would rather go into details in closed 
session, Mr. Chairman, but we don't target people for free 
speech.
    Mr. Hoekstra. Okay.
    Admiral Blair. We target them for taking action that 
threatens Americans or has resulted in it.
    Mr. Hoekstra. Yes. I am actually a little bit surprised you 
went this far in open session. But I do hope that in the next 
hour, or when we get into closed session, you can provide that 
clarity. Because other people in the community have not been 
able to provide us with that transparency or that clarity that 
I think that at least I would like to have.
    Admiral Blair. The reason I went this far in open session 
is, I just don't want other Americans who are watching to think 
that we are careless about endangering--in fact, we are not 
careless about endangering lives at all, but we especially are 
not careless about endangering American lives as we carry out 
the policies to protect most of the country, and I think we 
ought to go into details in closed session.
    Mr. Hoekstra. I believe that to be true 99 percent of the 
time. The reason that I believe that it needs this kind of 
stringent oversight in discussion and dialogue is that, it is 
one thing to say that, you know, we are not careless.
    That is why I started talking about Peru, because, in Peru, 
we were careless, and we were reckless. I want to make sure 
that this committee does everything that it can and within its 
power that it does not allow the community to be reckless and 
careless again.
    Admiral Blair. Okay. I absolutely share the committee's 
determination that while I am in charge, we will not be 
careless and reckless, and I look forward to supervision from 
the committee on that score. We have got to get this right.
    Mr. Hoekstra. All right, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman.
    Welcome, Mr. Director, it is good to see you. There are so 
many issues to talk about, and there is an overarching hearing 
on threat assessments. I just want to raise two, and then I 
have some other questions when we go into closed session.
    I think that we are all very concerned, obviously, yourself 
and the entire community, about archaic computer systems and 
the disconnect between our computer systems and the attempted 
attack on Northwest Airlines 253.
    We know that Google uses what is called a fuzzy logic to 
match names that aren't spelled exactly the same way. I can't 
help but think that if we had some kind of system in place, 
that Abdulmutallab's name might have been flagged despite the 
spelling.
    So can you tell us, in the upcoming, in the new budget that 
has been submitted, the President's budget, what you have 
included in that budget that will address the disparities that 
we have in what I think is a disconnected system? I think it is 
a key issue that we have to look at. If you might take a moment 
to describe exactly what progress you expect to make through 
the fiscal year 2011 budget under the information integration 
plan, that is number one.
    Number two, there have been reports in the last few days 
about moonlighting in the Intelligence Community. I think that 
this is a bad policy for many reasons. Why there would be CIA 
agents that are working with reportedly hedge funds to teach 
them the art of deception, I think we have had enough deception 
on the part of the financial community that has brought so much 
down around our ears in the country.
    But this is a troubling policy. We have had a reliance on 
contractors. If we are not paying people adequately, then I 
think that it is the responsibility of the community to come 
forward. But I think that this is a policy that needs to be 
revisited. I would like to hear what you think of it.
    As I said, I think that the reports that have come out in 
the last couple of days, I find them disturbing. I really find 
them disturbing, and it is my understanding that employees in 
your office, you know, the DNI's office, may moonlight with 
permission. I don't know ``with permission,'' I don't know what 
that policy is, but I think that we need to discuss it. I think 
we need to review it, and I would also like you to comment on 
it.
    So those are the two things that I would like to raise.
    Admiral Blair. Congresswoman Eshoo, let me in closed 
session talk about some of the specifics of the technical 
upgrades to both the search engines and the database, databases 
and the algorithms, like the fuzzy logic, to catch different 
spellings of transcribed Arab names that we have, because there 
are some good things happening, and we are speeding them up.
    But, in general, we are allocating additional--additional 
money, and we are going--we had a plan of gradual increases of 
technology, and we are speeding up that plan and putting more 
resources into it and putting more people onto the problem. I 
will talk about those in closed session.
    On the issue of moonlighting, sometimes I, too, am 
surprised by what I read in the press about my own 
organization, I will tell you. And this was a case of that. 
When I went into it, I found that we do have rules within all 
of the Intelligence Community branches, which comply with the 
overall government rules.
    The main activity of which I am personally aware, I know 
some of our officials on the ODNI staff do, is teaching, and, 
frankly, I favor that. Some of them teach evening classes on 
national security matters.
    Ms. Eshoo. Well, I think the teaching is different than 
moonlighting with other jobs relative to security, because 
people have security backgrounds. I think you know what I am 
driving at.
    If people go out and teach, that is one thing. But what I 
have read--maybe it is not accurate, but that is why I think we 
need to have a full review of it. We have people going out and 
working for hedge funds and other places so that they can make 
more money, but they are government employees.
    I think that there is a real potential for conflict. So I 
think we need to know what the policy is across the 
Intelligence Community; not only in your office but the CIA and 
any other part of the Intelligence Community. We have 16 
agencies. I don't know how many people are moonlighting or what 
they are doing.
    But I was stunned to read about it, I have to tell you. It 
sounded more like fiction to me than fact, and that is why I 
raise it, and that is why I think we need to take a good strong 
look at it.
    Admiral Blair. I certainly shall. But I do know that the 
rules are that you have to have approval from your supervisor; 
it can involve no conflict of interest; can't use classified 
information; and they are very strict on it. But I will make 
sure that we will get a report to you.
    The Chairman. We will do some follow up.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Director, I want to get back to this White House briefing 
for a second because I think it is really extraordinary that we 
have a situation where there was a leak that the Christmas Day 
bomber was giving us information. He was read his rights, and 
then he quit talking. Political controversy developed about 
reading the rights to non-Americans in those situations, enemy 
combatants and the rest.
    And to help squash the political controversy, the White 
House hastily calls a briefing with a senior administration 
official to say, oh, no, he is singing his guts out. I can't 
figure out a reason that would happen other than political 
cover.
    Can you tell me a national security reason that it would be 
helpful to the people in the Intelligence Community to have it 
broadcast from the White House, basically, that, yes, he is 
telling us everything he knows? Is there any way that could be 
a helpful thing?
    Admiral Blair. Let me just say, Congressman Thornberry, 
that I have been surprised by the combination of reality and 
politics having to do with this issue. I just try to do the 
job, to do the right thing for the country, and I just can't 
control all of the politics. I just want to protect the 
country.
    Mr. Thornberry. Well, I appreciate the position you are in.
    I just think it is extraordinary to use something like this 
for political cover.
    And then I have got exhibit 2. Two days ago, Mr. John 
Brennan sent a letter to the Speaker talking about recidivism 
at Guantanamo. Now, much of the last year, some of us on this 
committee have been arguing that we should give more 
information to the public about recidivism rates at Guantanamo, 
and so the people could more accurately assess the dangers of 
closing that facility.
    But this letter, which he--is unclassified, and he says at 
the end that he invites the Speaker to make the contents 
available to any Member who has an interest. This letter talks 
about a 20 percent recidivism rate. It gets rather specific on 
some of these things. It tries to argue, oh, it was all stuff 
the Bush people did; we are doing it better. Of course, the 
Obama administration hadn't been in long enough to know whether 
we have recidivism or not from people they may have let loose.
    But my real point on this is, isn't this another example of 
declassifying things for political advantage? It is kind of 
like the memos that were declassified last year, despite the 
objections of five CIA Directors, of bringing things out into 
the open just for the political argument, not considering the 
national security implications?
    Admiral Blair. I think that the recidivism rates should be 
available so that people can judge what the stakes are that are 
involved in dealing with these Guantanamo detainees. So I am 
basically in favor of doing it, and I think we need to. I think 
this ought to be a joint decision between the--that should be 
something that those of you in the Intelligence Community, the 
Intelligence Committees know a lot about, and we are partners 
in these tough decisions.
    Mr. Thornberry. Well, I agree, sir, that is the way it 
should be, but the timing of some of these disclosures leads me 
to question some of that.
    Let me turn to one last question I have got for you. It is 
clear, from recent events, that terrorists are spreading out in 
various places around the world, some of which get a lot of 
attention like Yemen, some of which do not get as much 
attention.
    We had to concentrate a tremendous amount of resources in 
Afghanistan and Iraq in the past few years, but as terrorists 
spread out over the world, it seems to me that there is a 
danger of United States, particularly human intelligence 
collectors, being relatively thin in many places where 
terrorists may spread out to.
    Can you comment about whether we have adequate coverage all 
over the world to make sure that, wherever they go, we can stay 
on top of those developments and not be caught some day wishing 
that we had had more coverage in a particular area after an 
event occurs?
    Admiral Blair. I can assure you, Congressman Thornberry, 
that what we do is specifically focused on what other places we 
don't have covered and then do something about it.
    For example, Yemen, which on Christmas Day popped into our 
consciousness, was something I would say 6 months earlier we 
had identified as a place that needed attention, and we, in 
fact, flowed both intelligence resources and other government 
attention onto that. We keep that running list to try to be 
ahead of the rabbit.
    So although I can't assure you that we will catch every 
single new country in which it came up, I think that we devote 
the right attention to that problem, and we push resources. And 
I will be back if we don't have enough resources to do it.
    The Chairman. Thank you.
    And just for the record, that letter to the Speaker was in 
response to a question that Congressman Wolf asked Mr. 
Brennan--remember when we had the joint classified session 
here. And as I understand it from the staff, there is a 
classified annex to that letter. But that is the response that 
Mr. Brennan agreed to make because of the questions that he was 
asking.
    Mr. Thornberry. Unclassified.
    The Chairman. But there is a classified annex part to it.
    Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman.
    And thank you, Mr. Director, for coming, and for trying to 
keep us informed all along the way.
    I would like to turn to Afghanistan. With all of the many 
things on your plate, this could consume everything, and there 
are clearly problems; Kabul's, as you say, inability to build 
an effective, honest and loyal institution or set of 
institutions. Afghans perceive the police to be corrupt and 
more dangerous than the Taliban. In short, you say that the 
Taliban has increased its influence. In other words, it sounds 
like we are not succeeding.
    Where you come in is, help us understand to what extent we 
are or are not succeeding. And I am trying to understand just 
how good the intelligence coordination is with Afghan coalition 
and Pakistan forces. I want to understand how, whether you 
think our intelligence is structured to support the surge that 
is under way for our forces. Well, let me ask you those two 
questions first.
    Admiral Blair. Congressman Holt, I would say that we have 
it almost all right. But there are a couple of areas that I 
still think we need to increase, and I will be glad to talk in 
closed session specifically, but in the area of supporting not 
military but civil units who have important responsibilities, 
provincial reconstruction teams, the agricultural development, 
governance development, increasing the, increasing the military 
intelligence skills of the Afghan national army, I think we 
have a good plan, but we are not quite where we want to be.
    I am quite satisfied with the understanding of what 
intelligence is needed. The resources are adequate, I would 
say, to do that job right. We just haven't quite finished 
putting all the pieces into place.
    Mr. Holt. To understand just where we stand with respect to 
the Taliban, we have to have a good presence and a good 
understanding out in the hinterlands. We have frequently been 
disappointed in the level of our language capabilities. It is 
not just, you know, it is not just Pashtu. It is not just Dari. 
Where are we in this? Can we reasonably claim to know what is 
going on outside of Kabul?
    Admiral Blair. Yes.
    Mr. Holt. Okay. Now, going on, in Afghanistan, how do you 
determine the balance between the resources devoted to what I 
will call traditional intelligence activities, collection and 
analysis, and the other activities that seem more military than 
paramilitary? I am not sure they are mutually supportive. In 
fact, I think they at times tend to be contradictory, and I 
also think that perhaps one can grow so large as to take 
resources and attention from the other. How do you--how are you 
determining that balance?
    Admiral Blair. I think, again, we need to talk in closed 
session more about that. But it is something that I and the 
other leadership of the Intelligence Community are very 
conscious of, and we need to do both. And we make adjustments 
as we go along. Although you can always tweak it, I think we 
have the balance about right, and I don't think we are giving 
short shrift to the support for the various components that we 
need to be successful in Afghanistan.
    I think that all of us realize that the ultimate solution 
in Afghanistan is not either a military or an intelligence 
solution, but it is fundamentally an Afghan solution of that 
country having the governance, the economic development and the 
security forces. For most Afghans, I think it is a good deal 
for them to be in charge rather than for the Taliban to be in 
charge. So nobody is thinking that either support for military 
intelligence or support for paramilitary activities is the end 
state.
    The end state we know has a lot more to do with Afghan 
governance and economic development, and that very much 
influences our intelligence support to reach that final goal.
    Mr. Holt. Thank you.
    I do appreciate your conscientious attention to your job 
and your commitment to do a better job to keep us informed.
    Thank you.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Thank you, Mr. Director, for coming.
    Given the risks of the Pakistan Government being unduly 
impacted or failing as a result of pushing from Taliban 
otherwise, do you still assess that the Pakistan military 
adequately controls their nuclear weapons and the use of those 
weapons in any event that the civil government has struggles?
    Admiral Blair. Yes, sir. The Pakistan army takes very 
seriously the security of its weapons, and they know the 
catastrophic consequences--primarily for Pakistan--if they were 
to get loose. So it is correctly incentivized, and from what we 
see of the measures that they take, they are keeping them safe.
    Mr. Conaway. Okay. Can you help me understand what 
Pakistan's interests in Afghanistan are that would be different 
from ours that would incent either their intelligence service 
and/or their military to continue to support Taliban and 
Haqqani network activities and mischief in Afghanistan? Why is 
there a difference of interest there that we aren't, in effect, 
on the same side?
    Admiral Blair. I think one of the main things affecting 
Pakistani thinking is the events of the early 1990s when, after 
the Soviet Union left Afghanistan, the United States left 
Afghanistan, and then the Taliban came back and took it over in 
1993. The Pakistanis, I think, understandably feel that they do 
not want an unfriendly country on their western border that is 
hostile to them. And so they, having felt that the United 
States left once before, they are concerned that we might not 
be as serious again.
    Mr. Conaway. So they are playing both ends against the 
middle?
    Admiral Blair. They have got a backup plan, and I think our 
job is to work together so that their plan and our plan is the 
same one. But it has its roots in historical memories and in 
the geographic strategic position of Pakistan.
    Mr. Conaway. Right. Language is important, starting with, I 
think, the State of the Union assessment of threats to that day 
here in Washington. The first time I had seen it was the 
reference to a lone offender. Offender seems to be an awfully 
gentle term to apply to someone like a Hasan or like the 
Christmas Day bomber.
    Was that a phrase you are familiar with? I prefer to use 
Islamic jihadists or terrorists or other things that more 
accurately describes the intent than someone that might offend 
me. Any comment about the phraseology?
    Admiral Blair. I am not sure about that word, sir. We have 
used words like lone wolf to describe their motives, the way 
they operate, but violent extremist is the word that using 
terrorist tactics is what----
    Mr. Conaway. Okay. I think we have run the risk of gently--
using words like lone offender, I think, lessens the intensity 
with which we ought to go after these guys.
    One final thing, in terms of the radicalization processes, 
do we have programs in place--the point I want to get to is 
madrassas and hate that is taught there, can be taught there. 
None of us would put up with hate being taught in any of our 
public schools. We wouldn't look to the Federal Government to 
stop that. We, as parents, would take that on.
    How do we incentivize moderate Muslims to address things 
that are being taught in madrassas either in the United States 
or other places that incents radicalization? Do we have any 
kind of way, any insight into how--because it is not our 
problem. We can't go into a madrassa and have any impact 
whatsoever, but a parent who sends their child there, I think, 
would have great incentive to stop that. Is there any way to 
incentivize that?
    Admiral Blair. I think you grabbed exactly the right end of 
the stick there, sir. It is the working with Muslim parents who 
want their children to be----
    Mr. Conaway. Educated.
    Admiral Blair. Educated is the right way to do it.
    I am not familiar with either U.S. Government or private or 
international programs that do that. But in the conversations 
that I have had with some Muslim officials, parents, 
influential officials in other areas, they would see it exactly 
the way you do, and I think we ought to support them.
    Mr. Conaway. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Conaway.
    Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Director, I wanted to ask you about Yemen and Somalia. 
And starting with Yemen, are there plans to establish a mission 
manager for Yemen with a focus on Yemen? Are there equivalent 
plans to put that kind of focus on Somalia? I am concerned, 
have been some time, with the problem in Somalia, and I worry 
that we don't wait to have an attack originate from Somalia to 
give Somalia the kind of attention we are paying to Yemen right 
now.
    So can you comment on how the focus on Yemen has 
intensified and whether we are paralleling that in Somalia; how 
you view the comparative threat emanating from both countries?
    In your open, written statement, you mention that Al 
Shabab, which maintains ties to the small number of al Qaeda 
members who continue to operate in East Africa, is certain to 
continue planning attacks. How do you estimate the comparative 
number of al Qaeda in Somalia to Yemen? So if you could start 
with those questions?
    Admiral Blair. Yes, sir, and I would like to talk a little 
bit longer when we get to closed session.
    But in general, the Intelligence Community focus on Yemen 
has intensified, as I mentioned to Congressman Thornberry, not 
just now, but had been previously. It is a mission, and we are 
organizing to give it the focus that it deserves; similarly for 
Somalia.
    Right now, I would rate the al Qaeda in the Arabian 
Peninsula operating out of Yemen as a better developed and more 
direct threat against the United States and against the 
American interests in that part of the world than Al Shabab. Al 
Shabab has a--it has both a Somali ambition. It wants to be the 
Government of Somalia. It also has a jihadist ambition which 
involves attacking the United States.
    And for the reasons I can go into more in closed session, I 
would rank Yemen as somewhat a more concern. But that is not to 
say we are spending any less attention to both of them. It is 
just that is how I would rank them right now.
    Mr. Schiff. Aren't there problems of a different scale in 
Somalia in the sense that, as you point out, you have Al Shabab 
poised, potentially, to take control of that country, I think, 
unlike the situation in Yemen, where the Yemeni Government is 
at least not presently at risk of falling to al Qaeda in the 
Arabian Peninsula? We also have a much more limited opportunity 
for cooperation in Somalia or for a physical presence in 
Somalia. So, in that respect, aren't the risks greater and our 
ability to address them less than in Somalia?
    Admiral Blair. You are absolutely right. President Salih is 
seized with the threat to his country, as is the United States. 
So we have a good partner there who wants to work with us, 
whereas in Somalia, the TFG is just barely hanging on and 
trying to work its own process. So both the intelligence and 
the support job is much more difficult in Somalia; you are 
right.
    Mr. Schiff. I just worry we sometimes focus on fighting the 
last battle. And we do it--we did it after 9/11, focusing on 
aircraft and the same kind of aircraft plans and then 
confront--we were confronted with other kinds of challenges. I 
worry that we are going to focus right now on Yemen, and then 
there is going to be an attack emanating out of Somalia. And 
then we are going to put our focus on Somalia, but I look 
forward to exploring it further with you in closed session.
    I think that is all the time that I have.
    The Chairman. Thank you, Mr. Schiff.
    Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    Thank you, Director Blair, for your service.
    I would like to go back to the Christmas Day bombing, 
because, to me, of the questions it raises about the 
coordination of the Intelligence Community, looking at it at 
the time and looking at it now, it was not clear to me who was 
in charge during those days. For instance, we have learned that 
apparently it was the Attorney General or the Attorney 
General's Office which made the decision on Miranda, without 
asking advice from DNI, CIA, NCTC, the Homeland Security.
    Then, I don't know who was briefing the President, but when 
the President did appear on the fourth day, December 28, I 
believe it was, to discuss it, he referred to Abdulmutallab as 
an isolated extremist. As Congressman Hoekstra and Congressman 
Thornberry have referenced, last night, there was a briefing at 
the White House on the status of the investigation.
    So for the purpose of clarifying who does what or who is in 
charge, could I ask, were you involved in briefing the 
President between Christmas Day and when he made his statement 
from Hawaii on Monday the 28th?
    Admiral Blair. Yesterday, Director Mueller and I and 
Director Panetta briefed the Intelligence Committee in the 
other Chamber on the events of this day. And Director Mueller 
gave a pretty good account of what went on in those fast-moving 
days of--I know, those fast-moving hours of Christmas Day and 
then in subsequent days.
    And during that day, the FBI agent said the Joint Terrorism 
Task Force were the people on the scene who were dealing with 
this developing situation. They were in touch with a team back 
here in Washington----
    Mr. King. Mr. Director, if I could jump ahead, really what 
I am talking about was the statement the President made on 
Monday the 28th. Who was in charge of briefing him for that 
day, and who signed off on the term isolated extremist? Would 
that have been you?
    Admiral Blair. The staff----
    Mr. King [continuing]. Places.
    Admiral Blair [continuing]. Was an interagency team, 
representatives of the Intelligence Community who worked for me 
were on that team that fed the information to the President. So 
we had an input on that.
    Mr. King. The actual statement the President made to the 
world, did you sign off on that statement?
    Admiral Blair. I am not going to talk about those internal 
processes, Representative King.
    Mr. King. At the meeting last night at the White House, the 
briefing that was given, as I see, some of the information that 
has been made public is, we are told that two family members 
convinced the terrorists to cooperate. Was that cleared with 
you as to whether or not it is appropriate to discuss publicly 
that two family members are cooperating or urged them to 
cooperate?
    And, also, I would ask, the fact that they did speak to a 
number of family members in Nigeria, that was made public. Is 
that much the type of information that should be made public? 
And if so, was it cleared with you or Director Panetta?
    Admiral Blair. Again, Congressman King, I am not going to 
comment on the internal processes for this investigation right 
now.
    Mr. King. Director, I can understand your position. I am 
really asking these questions to get them on the record, 
because I have a concern, from talking to various people in the 
Intelligence Community, that, number one, the Attorney General 
may have a disproportionate influence. But beyond that, the 
White House is very much involved in the weeds of policy. I 
don't know whether it is John Brennan or someone else, but the 
fact is that a lot of policy has been directed from the White 
House, which is cutting into what should be done by the DNI, by 
the CIA, the NCTC, and Homeland Security.
    I think we should look at that especially since, obviously, 
we do not have jurisdiction over Mr. Brennan, being a White 
House employee.
    And this does seem to be a marked difference from the 
previous administration. It might be the right thing to do, but 
if so, I think we should be consulted on that. Because it just 
seems to me that there were a number of decisions made, leaving 
aside the Mirandizing, just statements by the President, who 
was doing the actual briefing of the President, and the 
decision made last night at the White House to the releasing of 
what I would consider to be--could be considered as classified 
information or damaging information. And I just wonder if the 
entire Intelligence Community was consulted on that before 
these political decisions were made to release that 
information?
    Admiral Blair. I understand your question, sir.
    As I said before, the political dimension of what to me 
ought to be a national security issue has been quite, quite 
high. I don't think it has been very particularly good, I will 
tell you, from the inside, and in terms of us trying to get the 
right job done to protect the United States.
    And we are just trying to bring intelligence and law 
enforcement to bear to get the right information to make sure 
that those who threaten our country get behind bars. And I just 
don't want to go into the political side of it.
    Mr. King. Again, thank you for your service.
    The Chairman. Thank you.
    Mr. Director, just to be clear and to make it part of our 
record, the briefing that occurred last night that has been 
referred to this morning, was that in response to a leak that 
occurred that the information was going to come out about 
Farouk talking to the FBI, the FBI getting the information, and 
so the decision was made to brief members of the media? Is that 
correct? Is that how it happened?
    Admiral Blair. I don't know exactly what the origins of 
that event were, Mr. Chairman.
    The Chairman. Can you check on that and have somebody get 
back to us?
    Admiral Blair. Yes, sir.
    The Chairman. Because I am curious myself.
    Apparently, there was a leak, and they decided to do this 
briefing. Just based on the words that we used, hastily called, 
leads me to believe that they are reacting to some kind of 
information that was leaked out there and wanted to mitigate 
the damage, perhaps.
    Admiral Blair. Let me not make it up here but try to get 
back to you.
    The Chairman. Thank you.
    Ms. Schakowsky.
    Ms. Schakowsky. Good morning, Director Blair. Thank you for 
being here.
    I have been concerned that the United States has been too 
prone to outsourcing our security in various ways to 
contractors. And I wanted to ask you about this, what do we 
call it, the HIG, the High-Value Interrogation Group and 
wonder, to what extent this group is using contractors, if at 
all?
    Admiral Blair. The use of contractors by the HIG will be 
absolutely minimal. The only circumstances that we have 
discussed in internal deliberations where it might be used is 
if there is some language capability, which is, some 
interpretation, interpreting capability that is required that 
we don't have a government employee who has the level of skill 
required. We then would look to contracting. That is the one 
area in which we have talked about using contractors, but the 
High-Value Interrogation Group will be government employees.
    Ms. Schakowsky. But we have also talked about, for years it 
seems, increasing internally our language capacity. Is that 
still happening?
    Admiral Blair. Yes. That is a very aggressive program. I 
just don't like to say that there will never be some obscure 
dialect that we don't have the best, that we don't have a 3-3 
person available to do, that we might want to go outside to get 
someone so we get the nuance.
    Ms. Schakowsky. Thank you.
    We have been told in the past that the CIA is out of the 
interrogation business. Will the CIA help or be part in any way 
of the HIG program in doing interrogations?
    Admiral Blair. The CIA is a part of the team that has an 
interrogation and an intelligence support. As Director Panetta 
had said, the CIA as a body independently is out of the 
interrogation business, but they are part of this team under 
the direction of the structure we set up.
    Ms. Schakowsky. Will the CIA be conducting interrogations?
    Admiral Blair. They may be participating in interrogations, 
yes. As I said, all interrogations are guided by the Army Field 
Manual. There will be a uniform level of training, so we have 
not ruled out CIA officials with the right experience being 
part of the team.
    Ms. Schakowsky. But this is new. We were told that the CIA 
is out of the interrogation business, that the CIA is not doing 
interrogations, so this is a change in policy?
    Admiral Blair. I think it is the distinction between the 
CIA being the--running these sites that we had in the past, and 
being a member of the team. And they are members of the team. 
They are not running any kind of an independent interrogation 
capability.
    Ms. Schakowsky. Has the Intelligence Community determined 
or considered whether interrogations would be videotaped?
    Admiral Blair. I don't know the answer to that question. I 
will get back to you.
    Ms. Schakowsky. Would you?
    General Alexander and the NSA, I had questioned issues of 
preventing in advance situations where they had to come to us 
and say, mea culpa, certain databases shouldn't have been 
touched, et cetera.
    In the issue of reporting to Congress, have you considered 
someone being in charge, a compliance officer who watches to 
make sure that there are situations so that you as Director of 
National Intelligence, that it is not you that is responsible 
but that someone is preventing a situation where you have to 
come back and talk to us about why it didn't happen?
    Admiral Blair. Right. I don't enjoy those sessions any more 
than you do----
    Ms. Schakowsky. Sure.
    Admiral Blair. Congresswoman Schakowsky, and we have 
established a compliance official within the NSA directly in 
the chain of command of that program whose job it is to ensure 
that we are doing it right ahead of time when at all possible, 
and then certainly fixing it.
    Ms. Schakowsky. Well, that is just one. That is the NSA. 
But I am just wondering if there are any others, so that we 
don't continually--and it does seem to be continually--ask, how 
come we read it in the paper? How come Congress wasn't 
informed? And there are a number of things we can't even talk 
about here where we say, why weren't we told in a timely way?
    Admiral Blair. Right, let's talk some more about specifics 
in closed session, but the emphasis on compliance and on not 
saying oops is much greater than it was, and we will continue 
to pursue that. I just cited that one example within NSA, since 
that has been the source, as you know, of several of the things 
we have had to fix later.
    Ms. Schakowsky. I think that is an important improvement.
    Thank you.
    The Chairman. Mr. Blunt is not here.
    Mr. Rogers. No.
    Mrs. Myrick.
    Mrs. Myrick. Thank you, Mr. Chairman.
    But we have got votes coming up. And since the Director has 
to leave at 1 o'clock, I would like to be able to go into 
closed session, so I am not going to ask anything here.
    The Chairman. Great. Well, I was just conferring with the 
ranking member.
    It looks like we are going to be voting at 12:15. We will 
have five votes, one 15-minute and four 5-minute votes, which 
will effectively close out the time that we have the Director 
here.
    So what I propose to do is close this session, close the 
open session, reconvene in our hearing room. It is now 16 till 
12 p.m., and reconvene there 10 minutes to 12 p.m. and then go 
into closed session so that members can follow up with some of 
the issues.
    With that, we are recessed and will reconvene in our own 
hearing room. Thank you.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
